App. 1
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No. 20-2638
Minor Lee McNeil
Plaintiff - Appellant
v.
United States of America;
Department of Treasury
Defendants - Appellees
Appeal from U.S. District Court for the Eastern
District of Arkansas - Central (4:20-cv-00100-JM)
REVISED JUDGMENT
V

Before LOREN, COLLOTON, and ROBES, Circuit
Judges.
This appeal from the United States District Court
was submitted on the record of the district court and
briefs of the parties.
After consideration, it is hereby ordered and ad­
judged that the judgment of the district court in this
cause is affirmed in accordance with the opinion of this

App. 2
Court. The government’s motion for sanctions in the
amount of $8,000 is granted.
March 02, 2021
Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

App. 3
United States Court of Appeals
For the Eighth Circuit
No. 20-2638
Minor Lee McNeil
Plaintiff- Appellant
v.
United States of America;
Department of Treasury
Defendants - Appellees
Appeal from United States District Court
for the Eastern District of Arkansas - Central
Submitted: February 19, 2021
Filed: March 2, 2021
[Unpublished]
Before LOKEN, COLLOTON, and KOBES, Circuit
Judges.
PER CURIAM.
Minor McNeil appeals the district court’s1 dis­
missal of his complaint regarding the issuance of a
1 The Honorable James M. Moody Jr., United States District
Judge for the Eastern District of Arkansas.

App. 4
summons to determine his federal income tax liability
and the garnishing of his wages to pay past-due taxes.
He argues that federal taxation of his wages is uncon­
stitutional and he is a citizen of a “sovereign” state.
The district court determined that McNeil had not
identified any applicable waiver of sovereign immunity
or any basis for the court’s jurisdiction over his claims.
After careful review, we conclude that dismissal was
proper for the reasons stated by the district court. See
Hastings v. Wilson. 516 F.3d 1055,1058 (8th Cir. 2008)
(standard of review).
As to the government’s motion for sanctions, we
may award “just damages” and single or double costs if
we determine that an appeal is frivolous. See 28 U.S.C.
§ 1912; Fed. R. App. P. 38. In this case, we conclude that
sanctions are appropriate. See United States v. Gerads.
999 F.2d 1255,1256-57 (8th Cir. 1993) (per curiam) (re­
jecting argument that “Free Citizens of the Republic of
Minnesota” were not subject to taxation; granting gov­
ernment’s motion for sanctions for frivolous appeal).
Accordingly, we affirm the judgment of the district
court, see 8th Cir. R. 47B, and we grant the govern­
ment’s motion for sanctions in the amount of $8,000.
We also deny McNeil’s motion for remand.

App. 5
IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
CENTRAL DIVISION
MINOR L. MCNEIL
V.

PLAINTIFF

4:20CV00100 JM

UNITED STATES; DEPARTMENT
OF TREASURY
DEFENDANTS
ORDER
(Filed Jun. 22, 2020)
Plaintiff McNeil filed his pro se complaint under
42 U.S.C. § 1983, asking this Court to quash a sub­
poena issued by the IRS, to issue an injunction pre­
venting the IRS from further action against him, and
to return property already seized. (Doc. 1) He has since
filed an amended complaint, (Doc. 2), a supplemental
motion to quash, (Doc. 3), and a motion for immediate
judicial intervention. (Doc. 6) The Government has
moved to dismiss for lack of jurisdiction. (Doc 8)
McNeil has responded, (Doc. 11), and the motion is now
ripe for review.
I.

Background

McNeil contends that the federal government has
no right to serve a subpoena on him or to tax him. (Doc.
1 & 2). McNeil provides an historical synopsis to sup­
port his position that, while the government illegally
(and treasonously) gave itself jurisdiction to tax after

App. 6
FDR’s New Deal, the right ended when Congress en­
acted the National Emergency Act of 1977. (Id.)
Ignoring the Sixteenth Amendment to the Consti­
tution, McNeil contends the United States has no au­
thority to tax a “local territorial jurisdiction.” (Doc. 1-1
at 4) (quoting M’Culloch v. State of Maryland, 17 U.S.
316 (1819)). He further argues that Congress unlaw­
fully “extended federal wartime jurisdictions to control
trading activity inside the . . . United States,” (Doc. 1-1
at 2), and that, as a result, [a]lmost nine decades have
gone by without the American population at large hav­
ing ‘caught on’ to FDR’s treason.” (Doc. 1-1 at 8; Doc. 6
at 5). Nevertheless, McNeil argues that, by enacting
the National Emergency Act of 1977, Congress unwit­
tingly reverted federal jurisdictions back to the way
they were before FDR’s New Deal. (Doc. 1-1 at 9). As a
consequence, McNeil contends that he cannot be sub­
poenaed because he is “not a citizen of the U.S; [and is]
a nonresident alien with respect to the U.S.” (Doc. 1 at
5).

McNeil interprets the Internal Revenue Code to
provide that neither his Arkansas birth, his home in
Alexander, Arkansas, nor his employment at the Uni­
versity of Arkansas for Medical Science (UAMS), make
him a citizen of the United States subject to federal
tax law. (Doc. 1-1 at 61-62). He argues his Arkansas
home “is a foreign state” that “is not within the United
States” and that UAMS is a “foreign corporation.” (Id.).
As a result, McNeil argues that an unauthorized levy
has been laid on his earnings from UAMS which were
not derived from a source within the U.S. (Id.) McNeil

App. 7
states that he has filed “zero” federal income on tax
returns since 2006, that the IRS has recognized that
he is not required to pay federal income, and that the
IRS has illegally levied taxes on his constitutionally
protected earnings. (Doc. 1-1 at 6). He seeks injunctive
relief, replevin for wrongfully levied sums, and a de­
claratory judgment that he cannot be taxed.
The Government has moved to dismiss explaining
that subject-matter jurisdiction does not exist as it has
not waived its immunity or McNeil has not demon­
strated prerequisites to support federal jurisdiction.
(Doc. 8). It also argues that McNeil has failed to state
a claim for relief. (Id). The government asserts that
McNeil’s claims are nothing more than “misrepresen­
tations, unsupported or incomplete allegations, and
vague generalizations” and “an incoherent recitation
of unsupported statements, purportedly pertaining
to the government’s ‘war powers.’” (Doc. 8 at 4-5). The
government contends that McNeil’s claims are a “friv­
olous challenge to, and attempt to restrain collection
of, [his] income tax liabilities,” explaining that McNeil
is attempting to “re-litigate tax liabilities previously
adjudicated by the Tax Court and the Eighth Circuit!.]”
(Id. at 5). Because the Court finds that subject-matter
jurisdiction is lacking, the Court need not address the
Government’s additional grounds for dismissal.
II.

Standard

In considering a motion to dismiss, the court views
the complaint favorably to the plaintiff. Bell v. Pfizer,

App. 8
Inc., 716 F.3d 1087, 1091 (8th Cir. 2013). The party
claiming jurisdiction has the burden of proving subject
matter jurisdiction by a preponderance of the evidence.
Moss v. United States, 895 F.3d 1091, 1097 (8th Cir.
2018). Because a motion under Rule 12(b)(1) chal­
lenges the threshold question of the jurisdiction of
the court, “the court may look outside the pleadings” to
determine whether jurisdiction exists. Id.
A motion to dismiss for lack of jurisdiction under
Rule 12(b)(1) is subject to the same standard as a mo­
tion brought under Rule 12(b)(6). Stalley u. Catholic
Health Initiatives, 509 F.3d 517, 520-21 (8th Cir. 2007).
To survive a motion to dismiss under Rule 12(b)(6), “a
complaint must contain sufficient factual matter, ac­
cepted as true, to ‘state a claim to relief that is plausi­
ble on its face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (quoting Bell All. Corp. v. Twombly, 550 U.S. 544,
570 (2007)). The plausibility standard requires a plain­
tiff to show at the pleading stage that success on the
merits is more than a “sheer possibility.” Id. It is not,
however, a “probability requirement.” Id. Thus, “a wellpleaded complaint may proceed even if it strikes a
savvy judge that actual proof of the facts alleged is
improbable, and ‘that a recovery is very remote and
unlikely.’” Twombly, 550 U.S. at 556 (quoting Scheuer
v. Rhodes, 416 U.S. 232, 236 (1974)).
Generally, “jai district court lacks jurisdiction to
hear a case against the United States unless its sover­
eign immunity has been waived [.]” Kaffenberger v.
United States, 314 F.3d 944, 950 (8th Cir. 2003). Here,
the United States has neither waived its immunity nor

App. 9
has McNeil alleged any basis for federal jurisdiction.
Therefore, this Court lacks jurisdiction to hear this
case.
III. Analysis
A. Motion to Quash
In January 2020, the IRS issued a summons to
McNeil seeking personal tax information for unpaid
tax liabilities for 2006-2007 and 2009-2017. (Doc. 1-1
at 103-05, Doc. 8 at 3). McNeil has moved to have that
summons quashed. (Doc. 1, 2, & 3).
A district court only has jurisdiction to address a
taxpayer summons in limited circumstances - usually
when the summons is served on a third-party record
holder such as a bank or an attorney. 26 U.S.C.
§ 7609(b)(2), (f), or (g). None of these sections apply to
McNeil. Rather, a taxpayer, like McNeil, who wants to
challenge a personal summons may do so either before
an IRS hearing officer or by refusing in good faith to
comply, thus compelling the government to bring an
enforcement action in district court where the tax­
payer may then offer up a defense. 26 U.S. C. § 7604;
see United States u. Ritchie, 15 F.3d 592, 597 (6th Cir.
1994) (noting general mechanism for taxpayer chal­
lenges); see also In re Peter, 322 F. Supp. 270, 271 (E.D.
Ky. 1970) (dismissed motion to quash raised by tax­
payer finding it was equivalent to injunction and rem­
edy already existed). In short, if the summons had
been issued to a third-party, McNeil may have stand­
ing to bring a motion to quash. As it stands, however,

App. 10
the government has not waived its immunity; and,
McNeil’s attempt to circumvent the procedure does
not create standing. 26 U.S.C § 7609(c)(2)(A); see Tatar
v. United States, 142 F.R.D. 343, 344 (D. Utah 1992)
(the right to quash a summons does not extend to a
summons served on the person with respect to who li­
ability the summons is issued).
Because the IRS has not pursued an enforcement
proceeding in this matter, McNeil’s has no standing to
pursue a motion to quash. Accordingly, the motion is
denied.
B. Remaining Claims
McNeil asserts that this Court has jurisdiction to
hear his claims under 28 U.S.C. § 1331, § 1332(a)(2),
§ 1346(a)(1), § 1355, and § 1356. (Doc. 1-1 at 7). As will
be explained below, jurisdiction does not exist.
“A waiver of the Federal Government’s sovereign
immunity must be unequivocally expressed in statu­
tory text and will not be implied.” Lane u. Pena, 518
U.S. 187, 192 (1996) (internal citations omitted). Sec­
tions 1331, 1332(a)(2), and 1356 are general jurisdic­
tion statutes and do no serve to waive sovereign
immunity. See In re Blunt, 358 F. Supp. 2d 882, 888
(D.N.D. 2005) (§1331 does not waive sovereign immun­
ity); Nishibayashi v. England, 360 F. Supp. 2d 1095,
1101 (D. Haw. 2005) (“[S]ection 1332 is not in itself a
waiver of sovereign immunity!.]”); Murray v. United
States, 686 F.2d 1320, 1324 (8th Cir. 1982) (“There is
... no waiver of sovereign immunity to be found in 28

App. 11
U.S.C. § 1356, which is merely another general provi­
sion vesting jurisdiction in the district courts over cer­
tain kinds of seizures.”). And, § 1332(a)(2) governs
diversity suits between state citizens and a foreign
state. So, if McNeil’s reliance on this section is based
on his declaration that he is a sovereign not subject to
the laws of the United States, then that allegation, too,
does not waive immunity. Lane, 518 U.S. at 192.
Section 1346(a)(1) provides jurisdiction for tax re­
fund suits. However, before a taxpayer may bring a
claim for a refund of federal taxes, he must first have
timely made an administrative claim and have paid
the taxes for which the refund is sought. See Barse v.
United States, 957 F.3d 883, 885 (8th Cir. 2020); see
also Ledford v. United States, 297 F.3d 1378,1382 (Fed.
Cir. 2002) (quoting Flora v. United States, 362 U.S. 145,
177 (I960)).
In his prayer for relief in his initial complaint,
McNeil asks the Court to “[a]dd up all the injuries done
by the Department of the Treasury and provide a rem­
edy sufficient to pay [him] for his monetary losses [.]”
(Doc. 1-1 at 9). Presumably in support of the alleged
losses, McNeil attaches his pay stubs from UAMS
showing that, beginning in 2018, his paycheck was
garnished to satisfy an unpaid tax levy. (Doc. 1-1 at 65102). Then in his amended complaint, McNeil asks
for “property withheld from 2006 to 2016 totaling
$199,256.63” as well as the “[o]ngoing levy . . . totaling
$13,580.66 and continuing.” (Doc. 2 at 7) As previously
laid out, McNeil’s prayer for relief is based on his belief
that the government has no right to tax him at all.

App. 12
Even though McNeil appears to challenge all taxes, he
has not met the threshold for jurisdiction by demon­
strating that he has fully paid the challenged tax or
that he made a timely administrative claim. In fact, he
does the opposite and claims that he has “filed ‘zero’
federal income on tax returns with the IRS since
2006.”1 (Doc. 1-1 at 6). Accordingly, this Court lacks ju­
risdiction under § 1346(a)(1).
Finally, McNeil relies on §1355 for jurisdiction,
noting that it provides for the recovery of fines or pen­
alties illegally imposed. (Doc. 1-1 at 7) He contends the
government has illegally “imposed constitutionally
prohibited bills of attainder in the form of‘Civil Penal­
ties’ with accruing interest.” (Doc. 1-1 at 6-7) Reading
his complaint liberally, it appears that McNeil is mak­
ing the novel argument that taxes, and any subsequent
penalty or fine for nonpayment thereof, are the equiv­
alent to a bill of attainder. The Court, however, cannot
find any support for this argument. And, as argued by
Defendant, Congress provided a means to challenge
taxes through § 1346(a)(1). McNeil cannot circumvent
the jurisdictional requirements of that provision by at­
tempting to bring a suit under §1355. (Doc. 8 at 14);
Harkey v. United States, 715 F. Supp. 259, 261 (D.
Minn. 1989) (Full payment of any tax, penalty, or sum
(such as interest) is necessary before a suit to recover
any of these assessments may be maintained under
§ 1346(a)(1)).

1 Whether zero-tax claims, either generally or as pertain to
McNeil, are valid returns need not be addressed at this time.

App. 13
IV. Conclusion
Defendants’ motion to dismiss (Doc. 8) is
GRANTED. McNeil’s complaint is DISMISSED with­
out prejudice. The Clerk is directed to administratively
terminate McNeil’s motions. (Doc. 3 & 6).
IT IS SO ORDERED this 22nd day of June, 2020.
/s/ James Moody, Jr.
UNITED STATES
DISTRICT JUDGE

App. 14
IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
CENTRAL DIVISION
MINOR L. MCNEIL
V.

PLAINTIFF

4:20CV00100 JM

UNITED STATES; DEPARTMENT
OF TREASURY
DEFENDANTS
JUDGMENT
(Filed Jun. 22, 2020)
Consistent with the Order that was entered on
this day, it is considered, ordered, and adjudged that
this case is hereby DISMISSED without prejudice.
IT IS SO ORDERED this 22nd day of June, 2020.
/s/ James Moody, Jr.

App. 15
TRADING WITH THE ENEMY ACT
AS AMENDED.
[Public—No. 91—65th Congress.]
[H. R. 4960.]
AN ACT To define, regulate, and punish trading
with the enemy, and for other purposes.
Be it enacted by the Senate and House of Repre­
sentatives of the United States of America in Congress
assembled, That this Act shall be known as the “Trad­
ing with the enemy Act.”
Sec. 2. That the word “enemy,” as used herein,
shall be deemed to mean, for the purposes of such trad­
ing and of this Act—
(a) Any individual, partnership, or other body of
individuals, of any nationality’ resident within the ter­
ritory (including that occupied by the military and na­
val forces) of any nation with which the United States
is at war, or resident outside the United States and do­
ing business within such territory, and any corporation
incorporated within such territory of any nation with
which the United States is at war or incorporated
within any country other than the United States and
doing business within such territory.
(b) The government of any nation with which the
United States is at war, or any political or municipal
subdivision thereof, or any officer, official, agent, or
agency thereof.

App. 16
(c) Such other individuals, or body or class of in­
dividuals, as may be natives citizens, or subjects of any
nation with which the United States is at war, other
than citizens of the United States, wherever resident
or wherever doing business, as the President, if he
shall find the safety of the United States or the suc­
cessful prosecution of the war shall so require, may, by
proclamation, include within the term “enemy.”
The words “ally of enemy,” as used herein, shall be
deemed to mean—
(a) Any individual, partnership, or other body of
individuals, of any nationality, resident within the
territory (including that occupied by the military and
naval forces) of any nation which is an ally of a nation
with which the United States is at war, or resident out­
side the United States and doing business within such
territory, and any corporation incorporated within
such territory of such ally nation, or incorporated
within any country other than the United States and
doing business within such territory.
(b) The government of any nation which is an
ally of a nation with which the United States is at war,
or any political or municipal subdivision of such ally
nation, or any officer, official, agent, or agency thereof.
(c) Such other individuals, or body or class of in­
dividuals, as may be natives, citizens, or subjects of
any nation which is an ally of a nation with which the
United States is at war, other than citizens of the
United States, wherever resident or wherever doing
business, as the President, if he shall find the safety of

App. 17
the United States or the successful prosecution of the
war shall so require, may, by proclamation, include
within the term “ally of enemy.”
The word “person,” as used herein, shall be
deemed to mean an individual, partnership, associa­
tion, company, or other unincorporated body of individ­
uals, or corporation or body politic.
The words “United States,” as used herein, shall
be deemed to mean all land and water, continental or
insular, in any way within the jurisdiction of the
United States or occupied by the military or naval
forces thereof.
The words “the beginning of the war,” as used
herein, shall be deemed to mean midnight ending the
day on which Congress has declared or shall declare
war or the existence of a state of war.
The words end of the war,” as used herein, shall he
deemed to mean the date of proclamation of exchange
of ratifications of the treaty of peace, unless the Presi­
dent shall, by proclamation, declare a prior date, in
which case the date so proclaimed shall be deemed to
be the “end of the war” within the meaning of this Act.
The words “bank or banks,” as used herein, shall
be deemed to mean and include national banks, State
banks, trust companies, or other banks or banking as­
sociations doing business under the laws of the United
States, or of any State of the United States.
The words “to trade,” as used herein, shall be
deemed to mean—

App. 18
(a) Pay, satisfy, compromise, or give security for
the payment or satisfaction of any debt or obligation.
(b) Draw, accept, pay, present for acceptance or
payment, or indorse any negotiable instrument or
chose in action.
(c) Enter into, carry on, complete, or perform any
contract, agreement, or obligation.
(d) Buy or sell, loan or extend credit, trade in,
deal with, exchange, transmit, transfer, assign, or oth­
erwise dispose of, or receive any form of property.
(e) To have any form of business or commercial
communication or intercourse with.
Sec. 3. That it shall be unlawful—
(a) For any person in the United States, except
with the license of the President, granted to such per­
son, or to the enemy, or ally of enemy, as provided in
this Act, to trade, or attempt to trade, either directly or
indirectly, with, to, or from, or for, or on account of, or
on behalf of, or for the benefit of, any other person, with
knowledge or reasonable cause to believe that such
other person is an enemy or ally of enemy, or is con­
ducting or taking part in such trade, directly or indi­
rectly, for, or on account of, or on behalf of, or ‘for the
benefit of, an enemy or ally of enemy.
(b) For any person, except with the license of the
President, to transport or attempt to transport into or
from the United States, or for any owner, master, or
other person in charge of a vessel of American registry

App. 19
to transport or attempt to transport from any place to
any other place, any subject or citizen of an enemy or
ally of enemy nation, with knowledge or reasonable
cause to believe that the person transported or at­
tempted to be transported is such subject or citizen.
(c) For any person (other than a person in the
service of the United States Government or of the Gov­
ernment of any nation, except that of an enemy or all
of enemy nation, and other than such persons or clas­
ses of persons as may be exempted hereunder by the
President or by such person as he may direct), to send,
or take out of, or bring into, or attempt t,) send, or take
out of, or bring into the United States, any letter or
other writing or tangible form of communication, ex­
cept in the regular course of the mail; and it shall he
unlawful for any person to send, take, or transmit, or
attempt to send, take, or transmit out of the United
States, any letter or other writing, hook, map. plan, or
other paper, picture, or any telegram, cablegram, or
wireless message, or other form of communication in­
tended for or to be delivered, directly or indirectly, to
an enemy or ally of enemy: Provided, however. That
any person may send, take, or transmit out of the
United States anything herein forbidden if he shall
first submit the same to the President, or to such of­
ficer as the President may direct, and shall obtain’ the
license or consent of the President, under such rules
and regulations, and with such exemptions, as shall be
prescribed by the President.

App. 20
Department of Justice,
May 21, 1973.
Memorandum for the Special Committee on the
Termination of the National Emergency
re:

EMERGENCY POWER UNDER § 5(b) OF THE
TRADING WITH THE ENEMY ACT

During the course of hearings held by the Commit­
tee frequent mention has been made of the Trading
with the Enemy Act (“the Act”). Section 5(b) of the Act
has been the statutory foundation for control of domes­
tic as well as international financial transactions and
is not restricted to “trading with the enemy.” Its use
over the years provides an interesting study in the
evolution of a statute as a result of continuing inter­
play between the Executive and Congress. Of all the
emergency statutes under study by the Committee, it
has the most complex and varied history. This paper
does not make any recommendations or draw any con­
clusions but presents a short legal chronology of § 5(b)
to assist the Committee in understanding its back­
ground and present status.
I.

Original Enactment—World War I
The Act was passed in 1917 to “define, regulate,
and punish trading with the enemy.” 40 Stat. 415. Sec­
tion 5(b) gave the President power to regulate transac­
tions in foreign exchange, the export or hoarding of
gold or silver coin or bullion or currency and transfers
of credit in any form “between the United States and

App. 21
any foreign country, whether enemy, ally of enemy, or
otherwise.” 40 Stat. 415 (1917) as amended by 40 stat.
966 (1918). Section 5(b), at that time, exempted “trans­
actions to be executed wholly within the United
States,” thus appearing to limit its use as a basis for
domestic controls. It did not include a provision per­
mitting use of the Act during periods of national emer­
gency nor was its use restricted by its terms to the
duration of the First World War or any specified term
after the end of the War. A law passed in 1921 termi­
nating certain war powers specifically exempted the
Act from termination because of the large amount of
property held under the Act by the Alien Property
Custodian at that time. See Ellingwood, The Legality
of the National Bank Moratorium, 27 Nw. U.L. Rev.
923, 925-26 (1933).
II.
Depression Banking Emergency
Upon taking office in March 1933 President Roo­
sevelt was pressed to deal promptly with a nationwide
panic that threatened to drain the liquid resources of
most of the banks in the country. The Public Papers
and Addresses of Franklin D. Roosevelt, pp. 24—29
(1933) [hereinafter “Roosevelt Papers”]. He therefor,
invoked the “forgotten provisions” of § 5(b) on March 6,
1933 to declare a bank holiday and control the export
of gold. Schlesinger, The Coming of the New Deal 4
(1959). The bank holiday proclamation noted that
there had been “heavy and unwarranted withdrawals

App. 22
of gold and currency from our banking institutions for
the purpose of hoarding,” and that increasing specula­
tion abroad in foreign exchange had resulted in severe
drain on domestic gold supplies, thus creating a “na­
tional emergency.” Therefore it was “in the best inter­
ests of all bank depositors that a period of respite be
provided with a view to preventing further hoarding
of coin, bullion or currency or speculation in foreign
exchange.” In order to prevent export or hoarding of
bullion or currency a bank holiday was therefore pro­
claimed from March 6 through March 9, 1933. Execu­
tive Proclamation No. 2039. March 6, 1933, 48 Stat.
(Part 2) 1698.
By invoking § 5(b) as authority, President Roose­
velt was, of course, using that provision for a different
purpose than the one for which it was enacted in 1917.
However, as one writer noted, closing the banks was
“one of the surest and quickest ways” to prevent trans­
actions in foreign exchange and the exportation of gold
and silver coin, bullion and currency. Section 5(b) had,
as noted, given the President power to regulate such
matters. Ellingwood, The Legality of the National Bank
Moratorium, 27 Nw. U.L. Rev. 923, 925 (1933).
Congress was called into session within days of the
Proclamation. Roosevelt Papers 17. As soon as Con­
gress was convened on March 9,1933, it approved the
bank holiday by passing the so-called Emergency
Banking Act or Bank Conservation Act. 48 Stat. 1, That
Act provided that the actions and proclamations “here­
tofore or hereafter taken ... or issued by the President
of the United States . . . since March 4,1933, pursuant

App. 23
to the authority conferred by subdivision (b) of section
5 of the Act of October 6,1917, as amended, are hereby
approved and confirmed.” (48 Stat. 1; 12 U.S.C. 95b
(1970)). Congress thus “spread its protective approval
over executive acts the legality of which was uncer­
tain.” Ellingwood, op. cit. supra at 27 Nw. U.L. Rev. 929
(1933). Congress also amended Section 5(b). to provide,
among other things, that “[d]uring time of war or dur­
ing any other period of national emergency declared by
the President, the President may . . . regulate, under
such rules and regulations as he may prescribe . . .
transfers of credit between or payments by bankings
institutions as defined by the President. . . .” 48 Stat.
1. In the enactment clause Congress declared “that a
serious emergency exists.” 48 Stat. 1. The exclusion of
domestic transactions, formerly found in the Act, was
deleted from § 5(b) at this time.
The legislative history of the Emergency Banking
Act is short; only eight hours elapsed from the time the
bill was introduced until it was signed into law. There
were no committee reports. Indeed, the bill was not even
in print at the time it was passed. 77 Cong. Rec. 76, 80
(1933); Schlesinger, The Coming of the New Deal 8.
The abbreviated history shows Congress recog­
nized that the powers conferred on the President by
the Act were great. In the debate preceding the bill’s
passage those supporting it made such remarks as:
[Emphasis supplied.]

App. 24
Subsequently in 1933-34, acting under § 5(b),
President Roosevelt issued a series of orders which
prohibited the hoarding of gold and directed that all
gold bullion certificates be deposited with the Federal
Reserve Banks and which regulated transactions in
foreign exchange:
(1) Executive Order 6073 of March 10,1933,
prohibited the export or removal of gold from the
United States, except as authorized by the Secre­
tary of the Treasury, and banks were prohibited
from making transfers of foreign exchange except
in connection with certain described transactions.
This order did not specifically refer to a national
emergency.
(2) Executive Order 6102 of April 5, 1933,
generally required holders of gold coin, gold bul­
lion, and gold certificates to surrender their hold­
ings to Federal Reserve Banks. This Order stated
“By virtue of the authority vested in me by Section
5(b) ... as amended by Section 2 of the Act of
March 9, 1933,... in which amendatory Act Con­
gress declared that a serious emergency exists, I
. . . do declare that said national emergency still
continues to exist.”
(3) Executive Order 6111 of April 20, 1933,
authorized the Secretary of the Treasury to regu­
late transactions in foreign exchange and the ex­
port or withdrawal of currency from the United
States. The emergency basis for E.O. 6111 was
stated in the same language as the language of
E.O. 6102, quoted immediately above.

App. 25
(4) Executive Order 6260 of August 28,1933,
was issued to supplant Executive Orders 6102 and
6111. This order prohibited the holding or export
of gold, except under license issued by the Secre­
tary of the Treasury, and authorized the Secretary
to regulate or prohibit transactions in foreign ex­
change. In E.O. 6260 the President stated “I. . . do
declare that a period of national emergency ex­
ists.” Executive Order 6260 was confirmed and
amended by Presidents Eisenhower and Kennedy.
31 CFR Part 54. See 49 Op. A.G. No. 35, p. 9.
(5) Executive Order 6560 of January 15,
1934, authorized the Secretary of the Treasury to
regulate transactions in foreign exchange, trans­
fers of credit from American to foreign banks and
export of currency or silver coin. This order is still
on the books today. See 31 CFR Parts 127-128. In
this Order, the President declared that “a period of
national emergency continues to exist.”
In January 1934 Congress ratified all acts which
had been performed under the Emergency Banking
Act. 48 Stat. 343 (1934); 12 U.S.C. 213 (1970).
III.
World War II Alien Property Freeze
Following the invasion of Norway and Denmark by
Germany in April 1940 President Roosevelt acted to
protect funds of residents of these countries in the
United States from withdrawal under duress

App. 26
FOREWORD
The Trading With the Enemy Act of 1917 has been
on the books for nearly 60 years. As amended during
that period, section 5(b) has provided the President
with progressively broader authority to regulate the
nation’s international (and domestic) finance during
periods of declared national emergency. This section
has been construed over the years as providing statu­
tory authority, for “emergency” actions as diverse as
the “bank holiday” of 1933, an alien property freeze
and consumer credit controls imposed during World
War II, foreign direct investment controls imposed in
1968, and routine export controls in 1972, 1974, and
1976. It provides a major statutory basis for the trade
embargoes currently in effect against North Korea,
Vietnam, Cambodia, and Cuba.
But despite the obvious importance of section 5(b),
its legislative history has never before been assembled
and fully reviewed. The purpose of this committee
print is to provide such a legislative history. It is de­
signed to serve as a set of working documents for the
use of the Subcommittee on International Trade and
Commerce and of the full International Relations
Committee. These documents should also be of interest
and use to other Members of Congress working on re­
lated matters, and to the interested public.
In January 1973, Senate Resolution 9 established
a bipartisan Senate Special Committee on the Termi­
nation of the National Emergency “to conduct a study

App. 27
and investigation with respect to the matter of termi­
nating the national emergency proclaimed by the Pres­
ident of the United States on December 16,1950. * *
This national emergency, proclaimed to aid in prose­
cuting the Korean war, had never been terminated.
The Special Committee soon discovered that not one
but four “national emergencies” continued in effect, in­
cluding the national emergency declared by President
Roosevelt on March 6, 1933, to meet the problems of
the depression, and the national emergencies declared
by President Nixon on March 23, 1970, because of a
Post Office strike, and on August 15,1971, to deal with
balance of payments and other international problems.
The Special Committee also discovered that no in­
ventory existed of the hundreds of statutes delegating
powers to the President which were activated by
these Presidential declarations. In the words of Sena­
tor Mathias, Special Committee cochairman, “a major­
ity of the people of the United States have lived all of
their lives under emergency government.” The other
cochairman, Senator Church, pointed out that the
basic question before the Special Committee was
“whether it is possible for a democratic government
such as ours to exist under its present Constitution
and system of three separate branches equal in power
under a continued state of emergency.”
An exhaustive 2-year study by the Special Com­
mittee, followed by extensive consideration by the ap­
propriate legislative committees of each house, has
produced the National Emergencies Act, which was
signed into law by the President on September 14,

App. 28
1976 (Public Law 94-412).1 The act terminates all pow­
ers and authorities possessed by the executive branch
as a result of any declaration of national emergency,
and prescribes procedures governing the declaration,
conduct, and termination of any future national emer­
gency. Exempted, however, from the National Emer­
gencies Act are certain laws deemed especially
important to the functioning of the government.
Among these is section 5(b) of the Trading With the
Enemy Act.
Given the jurisdiction of the Committee on Inter­
national Relations under the Rules of the House, it is
the responsibility of the committee and its Subcommit­
tee on International Trade and Commerce, pursuant to
Section 502 of the National Emergencies Act, to con­
duct a thorough review of section 5(b) of the Trading
With the Enemy Act and to recommend revisions to the
House within 9 months.
Two problems arise in attempting to determine
congressional intent with regard to section 5(b). The
first is that the legislative history of 5(b) is short and
sketchy. There was virtually no discussion of it at the
time of the passage of the original Trading With the
Enemy Act, and subsequent amendments generally
occurred in times of crisis when apparently it was felt
that there was no time for the luxury of extensive de­
bate. The most striking example is that the 1933
amendment, which authorized the President to invoke
the powers of 5(b) simply by declaring a national
1 The text of Public Law 94-412 appears on p. 437.

App. 29
emergency, was debated and passed by both houses in
I day, without hearings and before the bill was even in
print. The second is that the relationship of 5(b) to the
rest of the Trading With the Enemy Act was ambigu­
ous from the beginning, in that there was no language
in that section limiting its application to the “enemy”
in time of “war” as defined in section 2 of the act.
In these circumstances, the subcommittee has
sought to include in this volume all the legislative his­
tory which might conceivably be relevant. Part I in­
cludes the following: the text of the entire Trading
With the Enemy Act as originally passed, and those
portions of the floor debates, committee reports, and
hearings which pertain to the general purposes of the
bill or to 5 (b) ; the complete legislative history of all
four subsequent amendments to section 5(b); the legis­
lative his- tory of relevant sections of two others acts
(the “Knox Resolution” of 1921 and the Gold Reserve
Act of 1934) which pertain to 5(b) without actually
amending it; and the current status of the entire Trad­
ing With the Enemy Act as it appears in the United
States Code Annotated.
If the legislative history of section 5(b) is short, its
“executive history” is extensive. The authority of 5(b)
has been invoked in numerous Presidential proclama­
tions and Executive orders. These are reprinted in part
II of this volume. Finally, in part III, the current regu­
lations governing financial transactions, issued under
the authority of 5(b), are reprinted from Title 31 of the
Code of Federal Regulations.1

App. 30
This volume was edited by Victor C. Johnson, of
the subcommittee staff. The subcommittee wishes to
acknowledge the invaluable assistance of Messrs.
Grover S. Williams and Walter S. Albano of the Ameri­
can Law Division, Congressional Research Service,
Library of Congress, in compiling the documents.
Jonathan B. Bingham,
Chairman, Subcommittee on
International Trade and Commerce.

App. 31
EXCERPT OF ARMY FIELD MANUAL
25. Enemy Status of Civilians
Under the law of the United States, one of the con­
sequences of the existence of a condition of war be­
tween two States is that every national of the one State
becomes an enemy of every national of the other. How­
ever, it is a generally recognized rule of international
law that civilians must not be made the object of attack
directed exclusively against them.

App. 32
Cross, et al., u. Harrison
[Excerpt]
(a.) The wisdom, goodness, and power necessary
for the protection of the general welfare and peace cf
the people, are the only source from which is derived
the authority to exercise the sovereignty of the nation.
1 Burlamaqui Nat. Law, c. 9, pp. 83, 89. And on these
the power to reward and punish rests. Id. 93. The
powers which the sovereign exercises, are those which
relate to internal administration. 2 Burlamaqui, Pt. 3,
c. 1, p. 152. And next, those which regulate foreign or
external administrations. 2 Id. Pt. 4, c. 1, p. 220. Among
this last class are the powers of making offensive or
defensive war, of concluding treaties and alliances, of
controlling the immigration of foreigners, and of regu­
lating commerce. By the laws of war, the sovereign ac­
quires the right to spoil, plunder, and destroy the goods
of his enemy, and possess his lands. 2 Burlamaqui, Pt.
4, c. 7, p. 290, &c. In order to indemnify for the expenses
of war out of his enemies’ goods and lands, and while
the conqueror continues in possession of the lands, he
is sovereign over them, and of all within them; and
may either admit the vanquished to the rights of sub­
jects, or banish them as enemies from the country, for
the sovereignty thus acquired is absolute. 2 Burlama­
qui, Pt. 4, c. 8, § 12, p. 309. And from these rights of war
flows the sovereign power of making treaties, equal or
unequal, (2 Burlamaqui, Pt. 4, c. 9, pp. 314, 317, 319,)
and whether in war or in peace—such treaties being
unequal whenever they limit the powers of the foreign

App. 33
sovereign; as by stipulating that the conqueror’s con­
sent shall be had before the foreign sovereign can act
in any given way. Id. § 13, p. 319.
The power to regulate foreign commerce neces­
sarily includes, as one of its incidents, the power to lay
imposts on foreign goods, or even to prohibit them en­
try, (Vattel’s Law of Nations, Bk. 1, c. 8, p. 39,) when­
ever the welfare of the State demands it: The right to
trade with a foreign nation is therefore conventional,
and the treaty-that cedes the right is the measure or
limit thereof—dependent on the will of the foreign
sovereign, and not a right of prescription. And a for­
eign nation may limit its foreign trade to itself, or to its
own vessels, by treaty or otherwise. Vattel, Bk. 2, c. 2,
p. 121.
During the flame of wax, a nation may sell or
abandon part of its public property, (Vattel, Bk. 1, c. 21,
p. 105,) though, if the sovereign be not absolute, this
may require the concurrence of his coordinates, the
people. The empire or sovereignty, and the domain or
property, are not inseparable—for the nation may have
its sovereignty but not its domain—which may be held
in the possession of a foreign nation, either by war or
treaty. Vattel, Bk. 1, c. 23, p. 118.
(b.) The sovereign who acquires a country by con­
quest or treaty, has the exclusive right to legislate in
regard to it, and may impart this right to another; and

App. 34
the country so acquired may be retained in a subject
condition, or be erected into a colony.
*

*

*

App. 35
President Proclaims a Bank Holiday

NOTE: Although this Proclamation was actually
the second one issued, it was already prepared and
ready for signature before the first Proclamation which
called the Congress into extraordinary session. Be­
cause of the banking crisis, it had been prepared on
March 5th, after continuous conference extending
over several days between Secretary of the Treasury
Woodin, Attorney General Cummings, the outgoing
officials of the Treasury Department, and myself.
For nearly two months prior to my Inauguration I
had discussed with a number of people the gloomy
banking situation toward which the country had been
drifting for some time. In order to meet it successfully,
it was necessary to discover some constitutional
method of obtaining jurisdiction over the entire bank­
ing system of the Nation—including not only the banks
which were members of the Federal Reserve System
but also the State nonmember banks.

App. 36
Calendar No. 397
86th Congress
1st Session

}

SENATE

{

Report
No. 405

PROVIDING FOR ADJUSTMENT OF LEGISLATIVE
JURISDICTION EXERCISED BY THE UNITED
STATES OVER LAND IN THE SEVERAL STATES
USED FOR FEDERAL PURPOSES
*

The bill specifically declares it to be the policy of
the Congress that (1) the Federal Government shall receive or retain only such measure of legislative juris­
diction over federally owned or operated land areas
within the States as may be necessary for the proper
performance of Federal functions; and (2) to the extent
consistent with the purposes for which the land is held
by the United States, the Federal Government shall
avoid receiving or retaining concurrent jurisdiction or
any measure of exclusive legislative jurisdiction. An
overall objective of the bill is to provide that, in any
case, the Federal Government should not receive or
retain any of the States’ legislative jurisdiction with
respect to qualifications for voting, education, public
health and safety, taxation, marriage, divorce, descent
and distribution of property, and a variety of other
matters, which are ordinarily the subject of State con­
trol.

